No. 19-1321
In The

Supreme Court of the United States
Cheryl A Wolf
Raymond J Fallica
Mary Piseitello
Petitioners
v.
United States
Respondent

CERTIFICATE OF COMPLIANCE
Petitioner(s) As required by Supreme Court Rule 33.1(h), I certify that the corrected
petition for Rehearing contains 2.998 words, excluding the parts of the petition
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 17, 2020

Raymond ^Fallica Pro Se
Administrator D.O.D. Contractor Cage Code 03PL0
6 Ethel Court
Wheatley Heights NY 11798
Tel (631) 374-4649

